<html>
<title> - PASSING THE BATON: PREPARING FOR THE PRESIDENTIAL TRANSITION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





      PASSING THE BATON: PREPARING FOR THE PRESIDENTIAL TRANSITION

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                     ORGANIZATION, AND PROCUREMENT

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 24, 2008

                               __________

                           Serial No. 110-154

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
49-494                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
JACKIE SPEIER, California

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

  Subcommittee on Government Management, Organization, and Procurement

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      BRIAN P. BILBRAY, California
CHRISTOPHER S. MURPHY, Connecticut   TODD RUSSELL PLATTS, Pennsylvania,
PETER WELCH, Vermont                 JOHN J. DUNCAN, Jr., Tennessee
CAROLYN B. MALONEY, New York
                    Michael McCarthy, Staff Director















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 24, 2008...............................     1
Statement of:
    Johnson, Clay, Deputy Director for Management, Office of 
      Management and Budget; Gene L. Dodaro, Acting Comptroller 
      General of the United States, Government Accountability 
      Office; and Gail Lovelace, Chief Human Capital Officer, 
      General Services Administration............................     6
        Dodaro, Gene L...........................................    20
        Johnson, Clay............................................     6
        Lovelace, Gail...........................................    48
    Kumar, Martha, professor, Department of Political Science, 
      Towson University; Doris Hausser, panel member for the 
      Department of Homeland Security President Transition Study, 
      the National Academy of Public Administration; Don Kettl, 
      professor, FELS Institute of Government, University of 
      Pennsylvania; and Patricia McGinnis, president and CEO, the 
      Council for Excellence in Government.......................    68
        Hausser, Doris...........................................    77
        Kettl, Don...............................................   249
        Kumar, Martha............................................    68
        McGinnis, Patricia.......................................   214
Letters, statements, etc., submitted for the record by:
    Dodaro, Gene L., Acting Comptroller General of the United 
      States, Government Accountability Office, prepared 
      statement of...............................................    22
    Hausser, Doris, panel member for the Department of Homeland 
      Security President Transition Study, the National Academy 
      of Public Administration:
        Prepared statement of....................................   208
        Report entitled, ``Addressing the 2009 Presidential 
          Transition at the Department of Homeland Security,''...    78
    Johnson, Clay, Deputy Director for Management, Office of 
      Management and Budget, prepared statement of...............     8
    Kettl, Don, professor, FELS Institute of Government, 
      University of Pennsylvania, prepared statement of..........   251
    Kumar, Martha, professor, Department of Political Science, 
      Towson University, prepared statement of...................    72
    Lovelace, Gail, Chief Human Capital Officer, General Services 
      Administration, prepared statement of......................    50
    McGinnis, Patricia, president and CEO, the Council for 
      Excellence in Government, prepared statement of............   217
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, prepared statement of...................     3

 
      PASSING THE BATON: PREPARING FOR THE PRESIDENTIAL TRANSITION

                              ----------                              


                     WEDNESDAY, SEPTEMBER 24, 2008

                  House of Representatives,
            Subcommittee on Government Management, 
                     Organization, and Procurement,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:16 p.m., in 
room 2247, Rayburn House Office Building, Hon. Edolphus Towns 
(chairman of the subcommittee) presiding.
    Present: Representatives Towns, Bilbray, and Platts.
    Staff present: Mike McCarthy, staff director; Jason Powell, 
counsel; Bill Jusino, professional staff member; Robert 
Burdsal, detailee; Kwane Drabo, clerk; and Mark Marin, minority 
professional staff member.
    Mr. Towns. The committee will come to order.
    Welcome to today's oversight hearing on the upcoming 
Presidential transition. Today we will examine a huge 
management challenge that we face between now and January 20: 
the Presidential transition.
    Last month, we watched our U.S. track athletes compete in 
the Olympics in Beijing. You may remember that both the men's 
and women's sprint relays didn't even make the finals, because 
they dropped the baton passing from one runner to another. It 
showed us that as talented and as hard-working as those 
athletes are, without working together, all may be lost. I hope 
the current administration and the new administration keep this 
example in mind and make sure that the hand-off of government 
is not fumbled or dropped.
    I will be candid with you. I want Barack Obama to be the 
next President. That's on the side. I know my friend 
Congressman Bilbray wants John McCain to be the next President. 
But that is not what today's hearing is about. It is about 
making sure that the government isn't in limbo for any period 
of time, because the challenges we face will not take a break 
while things are getting organized.
    This transition will have unique challenges. Much has 
changed since the last transition 8 years ago. Congress is 
working on a plan that would give the Secretary of the Treasury 
a huge amount of additional authority, $700 billion--that's 
``b'' as in boy--to bail out Wall Street and to fix the largest 
financial failure we have seen since the Great Depression.
    I'm skeptical about this plan, but it is clear that the 
next President and his Treasury Secretary are going to have to 
clean up this mess. The candidates have to start working on 
that right away--right now, by following the situation closely 
and by finding the most qualified person possible to be the 
Treasury secretary on January 20. It might even be a good idea 
for each candidate's economic advisers to sit in on discussions 
with Federal Reserve Chairman Bernanke and Secretary Paulson to 
make sure that they will be completely ready to take the lead 
next year. That isn't presumptuous. It's good leadership.
    Another concern I have is a problem that has come up 
before, where political appointees seek career positions to 
``burrow into'' the executive branch. These career positions 
are supposed to be open to the public. They are based on merit. 
If a political appointee is the person most qualified for the 
position, then so be it. But we will not allow members of the 
current administration to use their position to get jobs they 
do not deserve and stick around into the next administration.
    I would like to thank Ranking Member Bilbray, who has been 
working very closely with me over the years on so many issues 
in terms of this committee. I look forward to hearing from our 
witnesses who can tell us a lot about what exactly needs to 
happen in the next few months for the most effective transition 
possible.
    [The prepared statement of Hon. Edolphus Towns follows:]


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Towns. Of course, what I would like to do now is to 
swear in the witnesses. We always swear in our witnesses here.
    [Witnesses sworn.]
    Mr. Towns. Let the record reflect that all the witnesses 
answered in the affirmative.
    You may be seated.
    Let me introduce our witnesses. Mr. Clay Johnson is Deputy 
Director of Management with the Office of Management and 
Budget. Welcome. He was the Executive Director of the 2000 
Presidential transition and has a lot of experience with 
transitions.
    Mr. Gene Dodaro is the Acting Comptroller General of the 
United States and the head of the Government Accountability 
Office, Congress' investigative and auditing agency. We welcome 
you as well.
    And Ms. Gail Lovelace is the Chief Human Capital Officer of 
the General Services Administration, the Federal Government's 
main support agency and is leading GSA's transition planning.
    We welcome you, as well.
    I would ask the witnesses to summarize their testimony in 5 
minutes. The procedure is when you start out the light is on 
green; and when it gets to the final minute, it becomes yellow, 
caution; and then at the end it's red. Red means stop. Now, we 
have had some witnesses here that did not know what red meant.
    So why don't we start with you, Mr. Johnson.

  STATEMENTS OF CLAY JOHNSON, DEPUTY DIRECTOR FOR MANAGEMENT, 
    OFFICE OF MANAGEMENT AND BUDGET; GENE L. DODARO, ACTING 
     COMPTROLLER GENERAL OF THE UNITED STATES, GOVERNMENT 
 ACCOUNTABILITY OFFICE; AND GAIL LOVELACE, CHIEF HUMAN CAPITAL 
            OFFICER, GENERAL SERVICES ADMINISTRATION

                   STATEMENT OF CLAY JOHNSON

    Mr. Johnson. Thank you, Mr. Chairman. Thank you for holding 
this hearing.
    Let me just make a few brief remarks here at the beginning.
    A lot of effort is being expended, a lot of intelligence 
being applied to make sure that the things you are concerned 
about don't happen. There are really two related transition 
preparation activities going on. One of them involves the White 
House; and they are working with both candidates, the 
transition teams, to do everything we know how to do to 
prepare, to advise both candidates to do the work they need to 
do now and then during the transition to put their team on the 
field faster than anybody previously thought possible.
    Neither candidate is pretending like they aren't prepared 
to govern. They understand they need to be working on it now, 
and my understanding is that they are working diligently on it. 
And the White House is reaching out and working equally with 
both candidates, which I think might be a first, that the 
incoming--I mean, that the outgoing administration is working 
with both candidates of the major parties.
    The second thing which Gail Lovelace and I are involved in 
heading up is we want--this is working with agencies to ensure 
that the continuity of public services during the transition is 
consistent as if there is no transfer of leadership taking 
place. Our definition of success is that a customer of Labor or 
a citizen dealing with Homeland Security, whatever, should not 
recognize or should not be getting any different level of 
service during the transition than they had when all the 
political leaders were there in the previous administration and 
when all the political leaders will be there in the new 
administration.
    So we had, for instance, a 3, 2\1/2\ hour meeting today 
with the career, senior transition leads for every agency. I'm 
sure it's the first of what will be many meetings to talk about 
our goals, answer questions, plan on future activities, be 
really specific about the kind of input they need and so forth.
    With that goal in mind and that services will not be 
interrupted, the solution for that for the Treasury Department 
is going to be different than the solution to that for Homeland 
Security, which is going to be different for the solution for 
that for the Department of Agriculture. But the goal remains 
the same, which is if we're implementing some new program run 
by the Treasury Department, we needed to find this fall what 
that involves, what the outgoing and incoming administrations 
need to do aggressively and intelligently with each other and 
that the necessary preparation is made and the necessary 
interaction during the transition period takes place and that 
no balls are dropped, no baton is dropped.
    I'm highly confident that's going to happen, because I have 
every reason to believe that both candidates' transition 
activities are very results oriented. They know how serious 
this is. They know how the risk of dropping the baton during 
the transition is very real. And I know this outgoing 
administration from firsthand experience is equally results 
oriented and committed to doing this. So I'm highly confident 
that this baton is going to get passed. And, again, the way it 
gets passed successfully, Treasury, Homeland Security, 
whatever, it's going to be different, but it will get passed, 
as we say, seamlessly so it will not be even noticed by the 
customer.
    So, with that, thank you again for having the hearing; and 
I look forward to your questions.
    Mr. Towns. Thank you, Mr. Johnson.
    [The prepared statement of Mr. Johnson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Towns. Mr. Dodaro.

                  STATEMENT OF GENE L. DODARO

    Mr. Dodaro. Thank you, Mr. Chairman.
    Good afternoon to you, Congressman Bilbray, Congressman 
Platts. I'm pleased to be here to talk about GAO's efforts and 
plans to assist the upcoming transitions.
    As you well know, GAO has a long tradition and experience 
in providing assistance to each new Congress, and we have 
efforts under way to do that for the 111th Congress. But GAO is 
also cited in the Presidential Transition Act specifically as a 
reference, a source that new administrations are encouraged to 
come to to learn about their upcoming management challenges and 
risk as they make the leap from campaigning to governing.
    Now, our transition work has several key objectives. One, 
we want to provide insight into pressing national issues that 
the incoming administration will need to deal with from day 
one. These include the oversight of financial markets and 
institutions, a range of national security and homeland 
security areas to include U.S. efforts in Iraq and Afghanistan.
    Second, we want to underscore the range of challenges that 
a new administration will face in establishing partnerships 
with State and local governments, nonprofits, the private 
sector to deal with issues that need innovative, integrated 
solutions, such as financing our Nation's surface 
transportation system. We saw examples of that this year in 
shortfalls in the highway trust fund activities. Also, critical 
infrastructure protection, a national response plan and other 
issues.
    Third, we want to point out targeted opportunities to 
reduce waste and to conserve resources that could be applied to 
new priorities. There is over $55 billion in improper payments 
that are being made in a range of Federal programs. The Defense 
Department weapons systems have had cost overruns of our last 
estimate of $295 billion. There's a $290 billion tax gap. These 
are all areas where I think there are opportunities; and we're 
certainly, given the long-term fiscal outlook of the Federal 
Government and some of the pressing short-term needs, are going 
to need attention and could free up resources to help in some 
of these other areas.
    Fourth, there is a real capacity challenge in all the 
departments and agencies that's really going to need to be met 
and if not confronted directly is going to affect 
implementation of any policy initiatives a new administration 
will try to put in place. They are going to need to pick senior 
leaders as part of the management team. They have experience 
running large enterprises and achieving results across the 
Federal Government. The Federal Government has become more 
dependent on contractors, and it's very important to get a 
handle quickly on the contracts that are under way and also to 
build the capacity to better oversee and manage those 
contractors going forward.
    Also, one-third of the Federal Government's work force will 
be eligible to retire on this next administration's watch, so 
there's a succession planning challenge there as well as 
getting the new team to be implemented going forward.
    Last, we also believe it's very important for the new 
administration to build on some of the successes and efforts 
that have been established by Clay Johnson, OMB, and this 
administration on the high-risk programs and lists that GAO 
lists every year for the Congress that are in need of 
transformation and are fraud, waste, abuse and mismanagement. 
GAO's high-risk list, which we update with every new Congress, 
has really provided the foundation for the management 
improvement agendas of both the recent Bush administration and 
the Clinton administration before then; and we think that some 
solid foundations have been laid to make progress and that we 
think it's very important for that progress to continue to 
yield results.
    In closing, Mr. Chairman, with two wars ongoing, with a 
first transition for the new Department of Homeland Security, 
with turmoil in our financial markets, this is shaping up to be 
no ordinary transition effort; and GAO stands ready to help 
returning policymakers as well as new ones deal with all the 
challenges facing our Federal Government. So I will be happy to 
answer questions later.
    Mr. Towns. Thank you very much for your testimony.
    [The prepared statement of Mr. Dodaro follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Towns. Ms. Lovelace.

                   STATEMENT OF GAIL LOVELACE

    Ms. Lovelace. Good afternoon, Chairman Towns, Congressman 
Bilbray and Congressman Platts. Thank you for the opportunity 
to appear before you on behalf of the General Services 
Administration.
    Presidential transition is the top priority for GSA as 
stated by our Acting Administrator, Mr. Jim Williams, during 
his confirmation hearing. Jim has made it quite clear to all of 
us at GSA that we will be and are fully committed to a 
successful and smooth transition from the current 
administration to the next.
    I believe that the transition is an exciting time for us in 
the government. I'm honored to be able to play a role in 
ensuring a smooth transition as envisioned by Presidential 
Transition Act of 1963.
    At GSA, we deliver superior workplaces, quality acquisition 
services, and expert business solutions to our Federal 
customers. Our responsibility during Presidential transition is 
to provide many of those same services to the President-elect, 
Vice President-elect and members of the Presidential transition 
team.
    We started early and have good teams in place. We have 
secured space in Washington, DC, for the Presidential 
transition team and are currently well positioned to provide 
furniture, parking, office equipment, supplies, 
telecommunications, mail management, travel, financial 
management, vehicles, information technology, human resources 
management, contracting, and other logistical support as 
necessary and appropriate.
    We are partnering with the Secret Service and the Federal 
Protective Service, both part of the Department of Homeland 
Security, as they provide security for the President-elect and 
Vice President-elect. We recognize that a transition can be 
perceived as a time of vulnerability for our country, and we 
have identified alternate locations and workplace solutions for 
the Presidential transition team in the event of an emergency.
    GSA provides space, services and logistical support to the 
Presidential Inaugural Committee and the teams that plan and 
stage the various events that make up the Presidential 
inauguration. GSA provides similar logistical support services 
to President Bush and to Vice President Cheney to help them 
establish their offices when they depart the White House. GSA 
assists in establishing the former President's office, as we do 
for all former Presidents.
    The Presidential Transition Act of 2000 expanded our role 
in transitions specifically in two areas: We now prepare a 
transition directory in conjunction with the National Archives 
and Records Administration, and we assist the incoming 
administration with appointee orientation.
    The President's fiscal year 2009 budget requested $8.5 
million to support Presidential transition. In the event of a 
continuing resolution, GSA will need to make sure that funds 
are available for obligation by the incoming administration. 
This will require a special provision in the continuing 
resolution.
    Looking inside Federal agencies, I've had the pleasure of 
meeting with many agencies individually and in groups to 
explain GSA's unique role with them and to share some ideas 
about getting ready. We've created a special Web site, a 
section on our Web site, to share information about transition.
    As Clay mentioned, just this morning we held a meeting with 
agency transition directors. This session reinforced transition 
guidance that was recently issued by the executive office of 
the President.
    Like all other agencies, GSA is diligently working to 
ensure a smooth transition within our agency. We have created 
teams and empowered them to ensure that we have a successful 
transition as well. As an agency, I believe we are well 
positioned to do our part to ensure a smooth transition.
    In closing, Chairman Towns and members of the subcommittee, 
I would like to thank you for the opportunity to address you 
this afternoon; and I would be happy to answer any questions.
    Mr. Towns. Thank you very much.
    [The prepared statement of Ms. Lovelace follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Towns. Let me thank all of you for your testimony.
    I'd just like to deviate for a moment and allow opening 
statements.
    Ranking Member Mr. Bilbray.
    Mr. Bilbray. Thank you, Mr. Chairman. I appreciate it, and 
I will ask unanimous consent to introduce a written statement 
in my opening statement.
    Mr. Towns. Without objection, so ordered.
    Mr. Bilbray. And, let me just paraphrase. As somebody who 
has done transitions in many different ways, from when I was a 
young mayor in my 20's to chairman of a county of 3 million, 
the transition from one administration to the other is very 
important; and I think sometimes we forget that there's a trust 
and a responsibility given to us by the voters in every 
administration, be it a Member of Congress, be it some--a long-
haired mayor in a beach community or if it be a chairman of a 
county of--larger than 20 States in the Union.
    The responsibility does not end when someone else is 
elected. The responsibility continues to the last moment when 
the baton is passed, as this hearing has pointed out.
    We are an example, Mr. Chairman, of how not to do it; and I 
will say that regardless of my party affiliation. I think 
everybody agrees that if we really look back at what happened 8 
years ago, that is an example of how not to have a transition, 
when we saw the kind of abuses and the problems we had with the 
White House. There was equipment--questions about where it 
went, damage, records missing, and everything else.
    And, I say that with no happy heart. I just remember this 
happening; and it was a time that I was doing transition and 
turning over my office to another Member of Congress, a new 
Member of Congress. This is personal for me. I've had the 
displeasure of taking over an office from a Member of Congress 
who basically used the last days of her administrative--her 
time in office to trash everything so that it was the worst 
possible, in violation of the oath of serving and protecting 
the people under the guidance of the Constitution.
    And, one of things I said to my staff when I lost the 
election in 2000 was we're going to do just the opposite of our 
predecessors. We're going to show our predecessor exactly how 
somebody is responsible. And I hope, I hope, that is the kind 
of attitude that this administration takes in the transition, 
of setting an example of how it should be done. Because, to be 
very blunt, I think we've had an example of how it shouldn't be 
done; and, hopefully, that will be a challenge that Republicans 
and Democrats can work together in this next transition.
    So I appreciate the chance to be here today, Mr. Chairman.
    Mr. Towns. Thank you very much.
    I now yield to Congressman Platts.
    Mr. Platts. Thank you, Mr. Chairman.
    I have no opening statement other than to thank the 
witnesses for being here but, most importantly, for the work 
you're doing to ensure we do have that type of transition that 
the ranking member just discussed. Thank you.
    Mr. Towns. Thank you very much.
    Let me begin with the questions.
    Let me start with you, Ms. Lovelace. What services do you 
believe will be the most important for the incoming 
administration?
    Ms. Lovelace. As we work with both campaigns, we're working 
through to make sure that we are providing them all of the 
services that they need so that when they walk through the 
door, hopefully, the day after election, they are ready to 
begin their work immediately. So I believe it is the whole 
suite of services that we provide.
    The IT, of course, will be important. The furniture--I 
mean, it sounds rather trivial, but ensuring that they have 
everything they need as they walk through the door. I think 
it's the whole suite of services that we provide that will be 
credible.
    Mr. Towns. Mr. Johnson, let me go to you with the same 
question.
    Mr. Johnson. I agree with what Gail says. The transition is 
such an intense time that if the environment is something you 
don't notice, if it's just there, the things you need, the 
space, the lights, the paper, the computers, the phones or 
whatever are there, then you can deal with the intensity and 
deal with what you've been planning to deal with without being 
distracted by no lights, no air conditioning, whatever. And so, 
it's that everything works but yet you don't pay attention to 
the fact that it works because you're so focused on everything 
else. I think that's probably the definition of success for 
GSA, and I'll bet you they'll do a good job of it.
    Mr. Towns. Right. Let me ask, now, these political 
appointees, as it comes to the end, they now take jobs in an 
administration. Is anybody looking at this? Because, I'm 
concerned about it. Because, I think that if a person is highly 
qualified and it should be based on merits, rather than 
political ties or political connections for the next 
administration to have to deal with. Is anybody looking at 
this? Because, it happens all the time.
    Mr. Johnson. Yes, sir. I think it was in June or July that 
then the head of OPM, Linda Springer, put out some very 
comprehensive guidance on transition-related personnel matters; 
and one of them was the potential that you raised of political 
appointees burrowing in. So, what she defined is all the 
transition-related matters that the chief human capital 
community has to deal with, and so defined it very clearly, 
what's permitted, what's not, what laws allow, what laws don't 
allow. And so, the chief human capital community is intently 
focusing on getting the Federal Government to adhere and abide 
by those policies, just like the CFO Council is working on what 
their transition-related challenges are and the CIO Council and 
so forth.
    So, it's been raised as an issue, as something that's 
particularly sensitive during a transition; and it's something 
that's going to be actively managed. So, yes, people are paying 
attention to it.
    Mr. Towns. Mr. Dodaro.
    Mr. Dodaro. Mr. Chairman, if I might add, GAO, as it has 
been for the past 20 years during transitions, asked to monitor 
this conversion process across the Federal Government's 
activity. So we have efforts under way to do this.
    During the 2001-2005 timeframe when we last looked at this, 
there were about 130 positions that we questioned--we reviewed 
that--where transitions had occurred. About 18 we had some 
questions, and we referred them all to OPM. They followed up 
and took appropriate action. So we're on the case again this 
time at the request of Congress, and we'll be looking at that 
process as well.
    Mr. Towns. Mr. Johnson, you offered many general 
suggestions for what the incoming administration should do to 
prepare to govern, but what specifically should they do to 
prepare to take on the financial crisis?
    Mr. Johnson. Well, I think I--the primary message I tried 
to deliver in that article, that I was asked to write was you 
have to have really clear goals about what you want to 
accomplish in a transition. So my answer is sort of an offshoot 
of that.
    If the goal is, as I suggested it should be, that the 
outgoing administration and the incoming administration manage 
the transition at Treasury such that the American people, on 
all that's being debated within Congress now, never----
    Mr. Bilbray. Or not debated.
    Mr. Johnson. Or not debated. Never see--never get a sense 
that leadership is changing hands. That what needs to be taking 
place at the Treasury Department, Agriculture Department, 
Homeland Security, whatever, at the border, whatever, there 
will be no apparent change in political leadership taking place 
where the work is being done.
    So, what I'm confident is going to happen--I don't know 
what the specific answer is for the Treasury Department, 
because, first of all, what has to be done hasn't been defined. 
But I'm confident, as purposeful and results oriented as I 
understand both candidates are, whoever is elected to be 
President and this outgoing administration are going to clearly 
define what it means to be implementing what's been agreed to 
or not implementing what isn't agreed to and decide who needs 
to be brought up to what level of expertise and knowledge by 
what date. And, they'll decide who needs to be sitting in on 
what meetings and how quickly the--isn't the Secretary of the 
Treasury the first one that has to be confirmed, etc., and that 
will all get done.
    But it will all be driven by the commitment to the goal, 
which is that the most important things that have to happen in 
the Federal Government--and the one you talked about will be 
one of the most important if something is agreed to--is 
addressed and that the new administration is fully prepared and 
the outgoing administration is doing all the things they can do 
to get them up to speed, prepared to take that baton and pass--
not drop it.
    Mr. Towns. Right.
    I yield to the ranking member, Mr. Bilbray. Thank you.
    Mr. Bilbray. Let's keep on my ranting and raving and say 
this: What are we doing to try to avoid the problem we had 8 
years ago and what can we do with the executive basically going 
in transition? Is it something that we're going to need law 
enforcement into, of watching, and basically try to warn 
administrative members that they will be held accountable, if 
we have another incident like this where equipment, files, 
data, and everything else, the kind of abuses we've seen in the 
past? Do we have the ability to be proactive here and say, 
don't even think about it?
    Mr. Johnson. Yes, sir. I think, again starting with the 
goal, a seamless transition, no baton is dropped, the new 
administration comes in prepared, a new White House comes in 
prepared to begin to be effective and govern day one. Then what 
happens is the facilities people sit down and the 
communications people sit down and the mail delivery people sit 
down and say, what does that mean for them? And, that means 
those offices are spick and span, the computers are working, 
there is no trash, this, that or so forth, and so then they're 
held accountable. And, I know how this White House is run, and 
I know that will be the way this is managed.
    The keys being missing from some of the computers and the 
screens and initials being carved, that did occur. It was not 
ubiquitous. It was a handful of people, very--I bet very junior 
people. It was not systematic. It was--for the people whose 
offices were affected, it was a nuisance, but it was not a 
widespread phenomenon as reported in the paper.
    I wish it hadn't happened. I'll bet you those that were the 
perpetrators wish it hadn't happened. Now that they're 8 years 
older, I bet you they don't look fondly back on those days.
    But I have, again, every reason to believe that this 
administration is going to make sure that the definition of 
success for the outgoing administration is going to be made 
really clear.
    Mr. Bilbray. Well, I think we've just got to recognize that 
there are two sides of passion, and one is a passion for the 
people you work for or whatever. And, when elections don't work 
out the way you want, those can turn very negative. And, that's 
one of the threats you've got in there. And, you really do have 
an environment where passions can run very high, especially 
when elections don't turn out the way you want.
    And so, you basically think that it was a small enough 
problem that we don't have to really make a proactive----
    Mr. Johnson. Well, yes. I don't think it's--we have to 
respond to make sure that occurrence doesn't reoccur. I just 
know that, in general, this administration, from the facilities 
people to the--whatever, are going to have--to make sure that 
all the environmental things, the computers, the phone 
equipment, the spaces and so forth will be spick and span, 
clean, ready to go, just like Gail is planning on having it be 
the case at the transition offices.
    Mr. Bilbray. Mr. Johnson, we need to do it now while people 
are cool and calm, because elections can--once the emotions 
start flying, all the systems and logic go aside and you end up 
with that kind of situation.
    Mr. Johnson. Right. One of the two deputy chiefs of staff's 
primary job is transition and particularly how the executive 
office, the President, does its--performs its role during the 
transition. So, facilities being prepared for the next 
administration is a primary responsibility of this person and 
is the primary thing that this deputy chief of staff in the 
White House is focusing on.
    Ms. Lovelace. And, if I could add to that, we are working 
very closely with the people Clay is talking about at the White 
House, to make sure that everything is in alignment. We are 
ready to make sure that, just as we are preparing for the 
Presidential transition team coming in to make sure we're 
supporting them through the logistical support and facilities 
management of the White House complex to make sure that there 
aren't any issues. We've had many meetings on this topic and 
will continue to do that to make sure that there aren't any 
issues.
    Mr. Bilbray. Ms. Lovelace, if I was a manager on this 
staff, I'd be telling my staffers, look, if the election 
doesn't work out the way we want, you're going to have people 
coming here looking for things to blame on you, looking for it. 
So, you've got to make sure everything is taken care of, 
because they're going to be looking at stuff to be able to drag 
you over the carpet on.
    Ms. Lovelace. And, we work on it every day to try to make 
sure we don't have those kinds of issues.
    Mr. Dodaro. And, Congressman Bilbray, we at GAO were asked 
to go look at the circumstances in the White House during the 
last transition; and it was--as Clay articulated it--and it was 
documented along the lines of what he talked about.
    Now, one of the lessons learned there, though, too, there's 
a need to keep, you know, better records during this kind of 
transition process. So I think, while it wasn't a widespread 
issue, that prudence would dictate that it would be good to 
have reminders sent out to all the departments and agencies, 
records be kept appropriate. In case there are instances, then 
you'd be able to figure it out more efficiently.
    We had to spend a lot of time trying to reconstruct what 
either happened or didn't happen during that period of time. 
But, at end of the day, it wasn't a pervasive issue. It was 
very unfortunate, but I think reminders sent out among the 
executive branch to the key people would be a good idea.
    Mr. Bilbray. In fact, Mr. Chairman, because of my 
experience, it's maybe one of the issues that we've got to 
remember. It's not just the executive branch. It's every Member 
of Congress that's leaving and a new one coming in. I literally 
experienced a situation with computers being trashed and data 
banks being destroyed and a lot of stuff going on. So, it's not 
just an executive branch problem. This is a legislative 
problem, too.
    Mr. Johnson. Somebody was--in our meeting this morning with 
the career transition director, somebody was telling the story 
that they'd heard about back in--maybe when Nixon came into 
office in the White House. And, there was a fellow that was 
working in the Eisenhower Executive Office Building. So the new 
person came in, and the outgoing guy who was in charge of the 
facility had a big ring of about 30 keys and threw him the set 
of keys and said, ``It's all yours.'' That was the extent of 
the transition, the hand-off to the incoming administration. 
And, so our sights are set way higher than that.
    Mr. Bilbray. Thank you.
    Mr. Towns. I'm happy to hear it, too.
    Mr. Bilbray. Pretty ambitious.
    Mr. Towns. Thank you, Congressman Bilbray.
    I understand that GSA will manage a budget of $8.5 million 
to support transition activities. Should any additional funds 
be necessary, where that would that money come from? Would it 
come from the winning candidate?
    Ms. Lovelace. There is the opportunity when the--once there 
is a President-elect, they are able to continue to get funds 
from private citizens. There are some rules that are around 
those funds, and it's our experience that most incoming 
Presidents actually do get funds during that point in time. 
And, there are rules around what they can and cannot spend that 
money on and how much money they can take in. But, yes, there 
is a source of funding for them, likely.
    Mr. Towns. So, if your $8.5 million is not enough, you just 
say, that's it, we're not going to do any more, they now have 
to assume the responsibility?
    Ms. Lovelace. Well, we believe that we will manage the $8.5 
million effectively so it will take us through the whole 
point--a period of time between the election and the inaugural. 
So we will be working with the office of the President-elect to 
make sure that we are spending that money wisely and making 
sure that they are getting their priorities taken care of as a 
result of that money, but they can bring other money in to use 
during transition period.
    Mr. Towns. Yes, Mr. Dodaro.
    Mr. Dodaro. Mr. Chairman, the act allows for contributions 
up to $5,000, as Ms. Lovelace is pointing out; and those have 
to be disclosed both at GSA and GAO; and we have potential 
audit responsibilities over that money as well.
    However, your main point, though, goes back to the need--
and one of the other things that we're doing during this 
transition is to try to record lessons learned and identify 
opportunities for further refinements. Years ago, when the act 
was first passed in 1963, there was just an amount set. It 
wasn't indexed for future inflation costs or whatever, and I 
worked on an effort with the Congress in the past to have that 
amount indexed.
    But, we're talking about a government nowadays that's a lot 
different than the governments that have come before it in 
terms of the responsibilities and the requirements, and I think 
in a post-9/11 environment we need to sort of take a look as a 
Nation as to whether or not Presidential Transition Act is 
properly funded--well configured enough to allow for these type 
of transitions going forward. I think the current 
administration is doing a good job getting things ready, but I 
think it needs a good examination and lessons learned that can 
be documented and then reflected on.
    Mr. Towns. Right, because the last time we didn't have 
Homeland Security.
    Mr. Dodaro. Right, exactly.
    Mr. Towns. So did you look at that in terms of whether that 
would require extra money to help out in terms of the 
transition there as well?
    Ms. Lovelace. Well, with the Department of Homeland 
Security standing up, I mean, there are some security 
requirements that we have to meet for the incoming Presidential 
transition team. We are currently working with both the Secret 
Service and the Federal Protective Service as well as different 
members over in the White House to make sure that we are 
meeting those security requirements. So, whether we'll have 
enough money to take care of that, we will figure out a way to 
help manage through that. But, yes, there are some new security 
requirements.
    Mr. Johnson. But, if the Department of Homeland Security is 
scheduling some extra practices or tabletop exercises or 
whatever, this money does not go to that. This money goes to 
the President-elect's transition activities; and any moneys 
that are related to transition that are particular to 
individual agencies, that's supposed to be in their whatever-
fiscal-year-it-is budget.
    Mr. Towns. But, the question is, is it enough? That's the 
question.
    Mr. Johnson. What--the answer is going to be simply you 
can't do anything about--if their appropriations bills are 
passed by the beginning of the administration of the new fiscal 
year, it will be enough money. But, with the likelihood of a 
CR, there could be some agencies that have to move some money 
around.
    Mr. Towns. Mr. Dodaro, you warned that about one-third of 
the Federal work force will be eligible to retire at the end of 
2008. We're going to need to replace them with the most highly 
qualified people we can find, and we don't pay as well as the 
private sector, as you know. This is going to be a tough 
problem for the incoming administration. Do you have any 
suggestions as to what they might be able to do?
    Mr. Dodaro. I think the first thing is to focus on the 
career senior executives in those departments and agencies. 
Their retirement rates are a lot higher than for the general 
work force at large, and these are the people that have the 
institutional experience and are going to be the main 
interfaces with the political leadership that are going to come 
in at the departments and agencies.
    There are retention provisions that could be exercised at 
those departments, to try to hang on to some of these people a 
little bit later. There's efforts that could be made to bring 
back retired individuals who have particular expertise in these 
areas and waive the disincentive which is built into the system 
to have their annuity offset by whatever new money they're 
going to make. I think in some of these extraordinary 
circumstances that are occurring there ought to be some 
creative ways to try to both retain some of these very talented 
career senior executive service personnel. And then, while 
you're building the cadre of people underneath them, I am very 
concerned, very concerned about the ability to oversee 
contractors in this Federal Government in a lot of activities. 
And, if Treasury's plan is approved the way it is, they're 
going to be relying heavily on contractors; and they're going 
to have a big job, a big challenge overseeing those contractors 
which already would be dealing with very complex financial, you 
know, transactions, financial portfolios. So--and the number of 
career executives at the Treasury Department that are eligible 
to retire currently at the SCS level is almost 40 percent.
    So, I think this is a really important issue, and the new 
leadership team coming in really needs to focus on this both to 
solidify their relationship with the career civil servants and 
then to be very creative on attracting and retaining talent. 
And, succession planning has not been as much as it needs to be 
a priority in this government and having the capacity to govern 
and oversee these very difficult operations.
    So those are some of my initial thoughts.
    Mr. Towns. Mr. Johnson.
    Mr. Johnson. One thing that agencies--for this very reason, 
one thing that agencies have been held accountable for is to 
have succession plans in place and critical skills gaps. If you 
anticipate 2 years from now, 3 years from now, 4 years from 
now, where do you anticipate having critical skills gaps, 
management, technical expertise and so forth? So, every agency 
is held accountable for having a plan to fill this with--train 
junior people to take on more senior responsibilities, hire 
additional people, retain--and retain people who might be 
retiring otherwise.
    So, agencies are paying a lot of attention to how they're 
going to have the number of critically skilled people they 
need, including management people where they need them and when 
they need them, and it's not 100 percent perfect. Some agencies 
aren't where OPM would like them to be or GAO would like them 
to be, but this has been a specific activity that all Federal 
agencies have been accountable for. And, the majority of them 
are in very good shape--in terms of knowing what they're going 
to do to make sure they've got the right people on the job when 
they need them.
    Mr. Towns. Thank you. I yield.
    Mr. Bilbray. I have no further questions.
    Mr. Towns. Ms. Lovelace, let me just ask you one very quick 
question before you go. How is GSA using its lessons learned? 
In other words, looking back in terms of what has happened--I'm 
thinking in terms of what my colleague just said--in terms of 
some of the transitions that he's been involved in. I must 
admit that I have not had his experiences, but I could imagine 
what would happen in some transitions. Are you using your 
lessons learned to be able to deal with what's coming up?
    Ms. Lovelace. One of the nice things that we've done in GSA 
for actually the last several transitions is have the Director 
of Transition write after-action reports. So we have quite 
detailed reports on every aspect of the logistical support that 
we provide to the transition teams. So we have pretty 
significant insight into what happened previously, so that we 
can share those lessons learned across several changes of 
administration.
    We have also tapped into some of the resources who actually 
worked on previous transitions, so that they are there in 
support and advisory capacity to us so--you know, you can't put 
everything on a piece of paper--so they are sharing with us 
verbally some of their lessons learned and are there as 
advisors to us, to help make sure we can learn from what 
happened before and hopefully not make some of the same 
mistakes.
    Mr. Towns. Right.
    Let me just close with this. Mr. Johnson, you've stated 
that OMB has already distributed transition guidance and goals 
to the agencies. We understand that you held a big meeting you 
said this morning, which I think is good. But as we reviewed 
your guidance, we're pleased to note how you tied the 
accomplishments of the transition goals directly to the 
performance appraisal of agencies and, of course, senior 
executives. Please let us know how that works out.
    And you also indicated that the agencies will establish 
their fiscal year 2009 programs and management practice goals 
in a timely manner to support the transition in an appropriate 
manner, which is also good.
    I guess the question is, when will Members of Congress get 
their notice?
    Mr. Johnson. When will they get their notice?
    Mr. Towns. Yes. When will we get the information that you 
shared with us?
    Mr. Johnson. You mean about how the transition went?
    Mr. Towns. Well, when will your goals be made publicly is 
what I'm saying. Your goals, when they will be made publicly?
    Mr. Johnson. There was an agency--general guidance to the 
agencies on July 18th, and that's public.
    Mr. Towns. It is? Do you have one?
    Mr. Johnson. I mean, we can distribute it.
    Mr. Towns. I'd like----
    Mr. Johnson. It's a public document. Well, really, it's 
attached to my testimony; so that makes it public.
    Mr. Towns. Yes, but I would like to have a copy of it.
    Mr. Johnson. Fine, sir.
    Mr. Towns. That would really make it public.
    Mr. Johnson. OK. I sent you a copy with my testimony, but I 
will send you another copy.
    Mr. Towns. OK. Thank you very much.
    Let me thank all of you for your testimony. And I really 
feel that, working together, we can bring about a smooth 
transition. I think that's very, very important; and we all 
want to see that happen. We don't want to drop the baton, as 
has been described early on, and just try to make it as smooth 
as we possibly can.
    And, I would like to sort of put the GAO study into the 
record in terms of the Clinton transition. I would like to make 
that part of the record.
    So thank you very, very much for your testimony; and I look 
forward to working with you in the days and months ahead.
    Mr. Dodaro. Thank you, Mr. Chairman and Congressman 
Bilbray.
    Mr. Towns. Will our second panel come forward.
    I would like to welcome our second panel. As with the first 
panel, it is our committee policy that all witnesses are sworn 
in. So please rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Towns. Let the record reflect that all the witnesses 
have answered in the affirmative.
    You may be seated.
    Let me welcome all of you here.
    Our first witness, of course, Dr. Martha Kumar, is a 
political science professor at Towson University. Her research 
focuses on the White House; and she is director of the White 
House Transition Project, a nonpartisan effort by presidency 
scholars to provide transition information to the incoming 
administration.
    Ms. Doris Hausser is an academy fellow with the National 
Academy of Public Administration. She was a panel member for 
NAPA recent report on the transition of the Department of 
Homeland Security, and she retired from the Federal Government 
last year, as Senior Policy Advisor to the Director of Office 
of Personnel Management. Welcome.
    Dr. Don Kettl is the director of the Fels Institute of 
Government at the University of Pennsylvania. His research is 
focused on public policy and public administration, and he 
testified before Congress on management issues many times 
before. And, we're delighted to have you back again. And, maybe 
we can keep bringing you until we get it right.
    Ms. Patricia McGinnis is the president and CEO of the 
Council for Excellence in Government. Her organization is 
offering its help to the incoming administration with 
orientation sessions, briefings on management challenges, and 
it lists the profiles of the most difficult management jobs in 
the government. Welcome.
    Your entire statements will be placed in the record. And as 
we went through it before, the green light means go. The yellow 
light means prepare to stop. The red light means stop.
    As I indicated earlier on, some people get that mixed up. 
They think the red light means start. So we just want to make 
certain that we have the rules down pat.
    So why don't we start with you, Dr. Martha Kumar.

STATEMENTS OF MARTHA KUMAR, PROFESSOR, DEPARTMENT OF POLITICAL 
SCIENCE, TOWSON UNIVERSITY; DORIS HAUSSER, PANEL MEMBER FOR THE 
DEPARTMENT OF HOMELAND SECURITY PRESIDENT TRANSITION STUDY, THE 
     NATIONAL ACADEMY OF PUBLIC ADMINISTRATION; DON KETTL, 
    PROFESSOR, FELS INSTITUTE OF GOVERNMENT, UNIVERSITY OF 
  PENNSYLVANIA; AND PATRICIA McGINNIS, PRESIDENT AND CEO, THE 
              COUNCIL FOR EXCELLENCE IN GOVERNMENT

                   STATEMENT OF MARTHA KUMAR

    Ms. Kumar. Thank you very much, Chairman Towns, Congressman 
Bilbray. Thank you for the opportunity to discuss Presidential 
transitions and their importance to an effective start of a new 
administration. It's something in which we all have a stake. 
With the Nation at war and a fragile economy, a smooth transfer 
of power is not an option, it's a necessity.
    One of the points that distinguishes our political system 
from many others is our history of peaceful transfers of power 
from one administration to another. And we've experienced 
orderly transfers but they've been--there's been a difference 
in how they've played out. A smooth and effective transition 
comes about only through the work and coordination of many 
people and institutions in our political system.
    Mr. Johnson said the administration has as a primary goal 
to do a better job than it's ever done before to help the new 
administration prepare to govern. That means a great deal, 
because the efforts of the President, White House staff, 
departments and agency staff, contribute mightily to a smooth 
transition. The work of others in the Washington community is 
important as well, including the contributions of the Congress.
    In looking at what kinds of support and priorities seem to 
be important and have been important in transitions past, there 
are several.
    First, a climate of support for transition work by the two 
candidates. Successful transitions begin early and are viewed 
as a legitimate aspect of a Presidential campaign. Internally 
in government there is and has been support throughout the year 
for the notion of early transition planning. Outside of 
government, however, there's not been the same supportive 
climate, particularly in the press. With a Presidential 
campaign that seemed to have created so much media interest and 
attention in 2008, there was little interest in looking, on the 
part of news organizations, in looking at the preparations for 
holding office. News organizations have published occasional 
op-ed pieces calling for early transition planning. But, one 
Washington Post reporter wrote, at the end of July, about the 
reports that Presidential candidate Barack Obama was assigning 
transition planning to a team. He suggested perhaps that they 
create a hubris watch. In reality, by the summer nominating 
conventions, every President coming into office since President 
Carter has had a transition operation in place, gathering 
information on appointments in past transitions.
    In spring 1999, Clay Johnson began gathering information 
and names of people to appoint and talk to people from past 
transitions. In the Reagan years, Pendleton James who worked on 
appointments began in the spring of 19--in 1980, and 
coordinated with Ed Meese who was then the chief of staff. That 
was done well before the Republican Convention.
    Second, providing funding support that a transition 
requires. Whoever comes in as President next January faces a 
difficult situation where the budget is concerned. Living as we 
are on continuing resolutions rather than a fiscal year 2009 
budget, it will be difficult for a President-Elect to prepare 
for a budget of his own when there's none in place.
    The incoming President will need to introduce his budget 
within approximately 3 weeks of coming into office. That will 
mean, he will need to have his budget officials in place and 
ready to go shortly after the election.
    For the transition, the two teams cannot plan at this point 
on government funding when the $8.52 million transition funds 
request contained in the fiscal year 2009 budget proposal has 
not been passed. With--at this point with no funds committed, 
both the candidates must anticipate creating a fundraising 
operation capable of raising substantial sums. In the case of 
the incoming Bush administration, they were able to do that 
before they were declared the winners, but only because they 
had planned ahead so early, one of the kinds of priorities 
that's important here.
    And third is that White House staff comes first; that a 
President needs to have an orderly decisionmaking process in 
place, personnel director, and a counsel who's responsible for 
vetting and for creating ethics orders very early in the 
process before they ever select a Cabinet. With around 1,200 
administrative positions requiring Senate confirmation, a White 
House team needs to be in place to establish which of those 
positions to focus on.
    Recent experience calls for a new President to choose 
approximately 100 key positions, as the vetting and 
confirmation process has not been able to handle many more than 
that in the first 100 days. With their emphasis on economic 
issues, the Reagan transition team isolated 87 positions 
related to the economy and gave priority to filling those.
    Congress and the administration have made efforts to speed 
up the national security clearance process for the 2009 
transition by allowing clearance of officials to begin after 
the transition team--after the conventions and by working on 
the efficiency of the clearance process itself.
    The candidates, too, have a role here through what they say 
and what they promise. Candidates have sometimes limited 
themselves by making promises such as cutting the White House 
staff by 25 percent, which they then have to live with, and how 
very difficult and sorry they had ever said.
    Also, early promises about strong ethics rules have 
sometimes been a problem as they were in the Clinton 
administration. And in the end he had to rescind the order, the 
ethics order that he had.
    Identifying government resources. There are so many 
agencies, as we've heard today, that are interested in helping 
the transition teams early. And there's things that they can 
work on. Such, for example, a transition team can establish how 
it's going to capture and maintain its records. Both the 
Clinton and George W. Bush administrations experienced 
difficulties with records issues, which are something an 
incoming administration can avoid by working through with the 
Archives the capacities of possible record systems, 
particularly e-mail ones.
    The current administration could provide a smooth records 
process by reaching agreement on the status of the records of 
the Office of Administration in the Executive Office of the 
President as well as those of the Vice President.
    Otherwise a new administration will begin with unsettled 
rules for retaining records in both offices. The executive 
actions can limit and aid an administration. Many Presidents 
leave office with a blizzard of executive orders, proclamations 
and regulations, responding to requests by those in the 
administration and key constituents.
    In early May, White House Chief of Staff Joshua Bolten sent 
out a memorandum to executive branch personnel calling for a 
principled approach to regulation as we sprint to the finish, 
and resist the historical tendencies of administrations to 
increase regulatory activities in their final months. Though 
diminished, their remaining pressures----
    Mr. Towns. Could you summarize? We're going to have a 
series of votes.
    Ms. Kumar. In addition, the administration--sitting 
administration--can help by clearing out political appointees, 
by firing those that are political appointees so that the next 
Chief Executive doesn't have to do that, because it's hard when 
he comes in to do it.
    So in sum, there are people in place inside and outside of 
government ready to assist the transfer, and many positive 
actions have taken place to smooth the transfer.
    Mr. Towns. Thank you very much.
    [The prepared statement of Ms. Kumar follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Towns. Ms. Hausser.

                   STATEMENT OF DORIS HAUSSER

    Ms. Hausser. Thank you, Mr. Chairman. Did that go on? Can 
you hear me, sir?
    Mr. Chairman and members of the subcommittee, thank you for 
inviting the National Academy of Public Administration to 
testify on the best practices for the 2009 Presidential 
transition. As an NAPA Fellow, I served as panel member for the 
Academy's 2008 report that assessed the Department of Homeland 
Security's executive profile, its transition training, and the 
Department's plans for the 2009 Presidential transition.
    Many of the issues and recommendations outlined in that 
report apply to other departments and agencies as well as DHS, 
and especially those with national or homeland security 
responsibilities.
    The Presidential transition of 2009 is the first major 
transition since 9/11. As we point out in our report, recent 
history demonstrates that political transitions present an 
opportunity for terrorists to take advantage of real or 
perceived weaknesses in a nation's ability to detect, deter, 
prevent or respond to attacks. The final report of the 9/11 
Commission raised concerns about the impact of future 
transitions on the government's ability to deal with terrorism.
    Owing in part to the delayed resolution of the 2000 
election, the incoming Bush administration did not have its 
deputy Cabinet officials in place until spring 2001 or its sub-
Cabinet officials in place until that summer.
    Historically, getting the Presidential team in position has 
been a slow process. The Commission strongly pushed for changes 
to the process so that the Nation is not left vulnerable to 
these types of delays in a post-9/11 world. During the 
transition, DHS must retain the ability to respond quickly to 
most man-made and natural disasters.
    In light of these issues, Congress and DHS asked the 
Academy to assess DHS's executive profile, study its transition 
training, and review its plans for the 2009 Presidential 
transition.
    Our June report was the result of that request, and I 
request on behalf of NAPA that it be entered into the record, 
the full report, as my testimony is limited to this oral 
statement.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Hausser. The lessons learned from this work can be 
applied to other Federal departments and agencies. For example, 
the Academy panel assessed DHS's allocation of executives 
between career and political appointees and compared it with 
other departments. Overall, about 13 percent of DHS executives 
are political appointees, about average for all Federal 
departments. The percentage of all executive appointees who are 
political appointees ranged from 9 percent at the Veterans 
Administration to 35 percent at the Department of State. But 
the Academy panel also noted that 30 of the top 54 executive 
positions, or 56 percent at DHS, are filled by political 
appointees.
    Large percentages of other departments' top executives are 
also political. This includes 49 percent at Treasury, 59 
percent at Justice and Defense, and 66 percent at the 
Department of State.
    Overall, the Academy panel believes that efforts need to be 
made to reduce the number of political appointees, specifically 
in the DHS security and national disaster environment, so that 
these positions can be filled with career executives who will 
learn the job over time versus a noncareer appointee with a 
much shorter tenure. At DHS the Academy panel recommended that 
noncareer headquarters deputy officials, FEMA regional 
administrators, and other professionals be career executives.
    Another part of the Academy's DHS study compared their 
transition training programs with those of similarly structured 
Cabinet-level agencies. The Academy panel concluded that DHS's 
transition training and development efforts are consistent with 
executive development programs in most Federal agencies, and it 
has a balanced set of transition-specific training programs 
underway. If implemented, these should help executives prepare 
to meet their homeland security responsibilities during 
transition.
    DHS is well along with its--in its transition training, 
especially given that it is a young agency with a critical 
national mission going through its first Presidential 
transition. The panel believes other departments could benefit 
from learning about DHS's transition training.
    Finally, we looked at their transition planning and the 
report laid out a series of actions that were tailored to 
Presidential transition timeframes. Specifically, before the 
national party conventions, DHS was to have completed, updated, 
and executed its transition plans, identified key operational 
executive positions, ensured that training and joint exercises 
had begun, and filled vacant executive positions.
    Between the conventions and the elections, consistent with 
the recommendations of the 9/11 Commission and sense of the 
Senate provisions, the panel recommended DHS should work with 
executive branch agencies and Congress to reach out to 
Presidential candidates to identify potential homeland security 
transition team members and help them obtain security 
clearances by Election Day.
    Between the election and the inauguration, DHS should work 
with the incoming administration, the executive branch, and 
Congress to ensure that the new Secretary of Homeland Security 
is sworn in on Inauguration Day, that key executives are 
identified and voted on by the Senate as quickly as possible, 
recognizing that any day a critical position is vacant is a gap 
in our homeland security coverage and that transition training 
and joint exercises are provided to executive appointees and 
nominees.
    Following Inauguration Day, training of new appointees, 
nominees, and careerists should continue to build trust and 
operational performance. Within the first 6 months there should 
be a capstone scenario exercise to evaluate the effectiveness 
of transition planning. We want to--are happy to report that in 
June the DHS appointed retired Coast Guard Admiral John Acton 
to a full-time transition director who reports directly to the 
Deputy Under Secretary for Management, and they have completed 
a comprehensive plan for all facets of transition that focus on 
particularly critical issues.
    In addition, they are collaborating with relevant 
departments within the Federal Government, with State and local 
governments, and with the private industry. And joint training 
and exercise opportunities are being actively coordinated.
    Many of the Academy panel recommendations for DHS do also 
apply to other Federal departments such as the appointment of a 
transition director, development of a comprehensive plan, 
identification of critical noncareer positions and transition 
training. The report notes that to the greatest extent 
possible, incoming DHS leadership, including the Secretary and 
key staff, must be in place on Inauguration Day or shortly 
thereafter. This will require the support and cooperation of 
Congress, and certainly Federal agencies with background checks 
and clearance responsibilities.
    The Academy panel believes all Federal departments and 
agencies need to begin immediately to address the issues that 
are appropriate--that are presented in our DHS report.
    Mr. Chairman, that concludes my statement. Thank you again 
for inviting the Academy to this hearing and I would be happy 
to respond to any questions.
    Mr. Towns. Thank you very much.
    [The prepared statement of Ms. Hausser follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Towns. As you know, the bells just sounded, which means 
that we have votes. How many votes do we have? I would say 10 
minutes after the last vote we resume.
    Mr. Bilbray. I'll try to make it back. At 4 I have----
    Mr. Towns. OK. Well, I can't say what time because we have 
three votes. But as soon as we finish.
    Mr. Bilbray. As soon as the Chair is back.
    Mr. Towns. Ten minutes after the last vote we'll be back. 
OK. So the committee is in recess.
    [Recess.]
    Mr. Towns. Ms. McGinnis.

                 STATEMENT OF PATRICIA McGINNIS

    Ms. McGinnis. There we go. Thank you very much, Mr. 
Chairman, for inviting me to be part of this discussion. The 
Council for Excellence in Government, as I'm sure you know, is 
a nonprofit, nonpartisan organization made up of private sector 
leaders who work together to improve performance. And we've 
been involved in--actively in past Presidential transitions in 
several ways.
    One, we publish a quadrennial ``prune book.'' I don't know 
whether you've heard of it it or seen it. It is not the ``plum 
book,'' which is the list of 7,000 political appointees. But 
instead we choose a smaller number of prunes, the top appointed 
tough management jobs. And then we profile them in terms of 
qualifications and what it takes to succeed. So we say that a 
prune is a plum, seasoned by experience and wisdom and with a 
much thicker skin. So the metaphor has sort of taken on a life 
of its own.
    We also produce a survivor's guide for Presidential 
nominees, which helps people navigate the very complicated 
process and helps those who are reporting about it or 
overseeing it understand it. And we're taking all of this 
online this year in an interactive Web resource related to 
transition.
    We also have been asked by the George W. Bush White House 
and the Clinton White House to organize and help with 
orientation leadership programs for new top Presidential 
appointees and White House staff. So that has been a privilege 
to do. And we have worked closely with steering committees in 
the White House to structure those programs in ways that work 
best for each President and each administration. But they 
focused on managing for results and managing in the context of 
the Federal Government and the Washington context and the 
national context.
    This year we were also asked by the Department of Homeland 
Security and Congress to focus on DHS transition. And we're 
helping them assure continuity by working first with the acting 
career officials to make sure they're prepared to respond to a 
major emergency, and then the transition leaders, and then the 
new appointees as they come in. So we have thoughts about an 
effective Presidential transition that I'll share a few with 
you, and there are more in my testimony.
    Of course, looking back to the past to see what's worked 
and what hasn't makes a lot of sense. But this year more than 
any transition I can think of, it's just as important, maybe 
more important, to look to the future and the kinds of 
challenges that we're facing. We know that this is a historic 
transition. We have Presidential and Vice Presidential 
candidates, none of whom have worked in the executive branch of 
the Federal Government before. We're at war. Our economy is 
facing unprecedented risk. And 83 percent of Americans think 
that things in our country are off on the wrong track. The 
public's priorities are understandably the economy, the war in 
Iraq, health care reform, and terrorism. And those really 
defined the context for the Presidential campaign. And 
transition. Campaigns usually focus on ideas and policies and 
what needs to change. But success in governing depends as much 
or more on the ability to implement and execute those ideas 
well. And the same goes for a Presidential transition. So 
organization and management and results really matter.
    In my testimony I laid out the key indicators of a 
successful Presidential transition, and I won't go through them 
all. But it's really about the quality and experience of the 
people who are appointed to the leadership roles and, equally 
important, getting them in place early so that we do have 
continuity on January 20th or as closely as possible for the 
Cabinet and the top sub-Cabinet officials. And then, of course, 
having the White House organized and a decisionmaking process 
in place, a lot of consultation and outreach with other 
government officials and stakeholders and the public and being 
ready to lay out the agenda through the President's Budget, the 
Inaugural Address, the first address to a joint session of 
Congress.
    The things that I want to say in terms of our advice, or to 
the transition leaders and to the Congress, the transition 
leaders should take advantage of the provisions in the 
Intelligence Reform and Terrorism Prevention Act, which allow 
them to submit--today they could submit 100 names to begin the 
security clearance process for transition advisors. It's my 
understanding that very few names have been submitted at this 
point. And then the day after the election, they can begin to 
submit names for prospective nominees. The goal should be to 
have the Cabinet confirmed on January 20th, the White House 
staff in place. The White House chief of staff should be named 
as soon after the election as possible. And if you're going to 
have 50 to 100 sub-Cabinet appointees in key departments like 
Treasury, Homeland Security, national security agencies, you 
have to start early with the Cabinet. It probably means that 
the Cabinet needs to be selected soon after the election in 
order to have them--or at least the most critical Cabinet 
members involved in the selection of the sub-Cabinet 
appointees.
    The other piece of this puzzle for the executive branch in 
the Bush administration is to make sure that you can move these 
clearances and move the appointments process, the nomination 
process, as rapidly as possible. Clay Johnson has said that 
they are prepared to have 100 people in place by April 1. And 
we say that's not good enough. You have to have people in place 
sooner than that. And the way to do that, given the way the 
process works--and it has been streamlined and expedited--is to 
have more investigators. If you can get the Cabinet in place on 
Inauguration Day, or the week after, with enough investigative 
capacity you can get 50 or more sub-Cabinet critical appointees 
in place within 30 days of inauguration.
    I want to commend Clay Johnson and his work as Deputy 
Director for Management because I think it really has been 
outstanding. But again, we think that this should go faster. 
And if you sort of map out the process, I think we could all 
figure out how to do that, and expanding the capacity is 
important.
    The final piece of the puzzle is that the Senate should be 
prepared to confirm nominees within a reasonable period of 
time. The Intelligence Reform and Terrorism Protection Act 
suggests 30 days. We think that's right. And we have just--
along with the heads of a number of organizations, including 
the National Academy of Public Administration--sent a letter to 
both candidates saying that they should not only get their 
names forwarded but implore their Senate colleagues to agree on 
a timeframe for considering and approving these--voting on 
these nominees and perhaps changing the rules about holds to 
prevent votes and any other process changes that would make 
sense to try to get those in place before the election and 
before we have a winner and loser. All of those ingredients 
together.
    If the transition teams, the FBI, and OPM investigative 
capacity is expanded and the confirmation process can go 
rapidly, I think that we could have a strong team in place and 
really ensure continuity in this challenging time.
    Thank you very much. And I look forward to the discussion.
    Mr. Towns. Thank you very much.
    [The prepared statement of Ms. McGinnis follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Towns. Mr. Kettl.

                     STATEMENT OF DON KETTL

    Mr. Kettl. Mr. Chairman, thanks very much, and not only for 
the opportunity for the chance to testify before the 
subcommittee today, but also for the subcommittee's leadership 
in taking on this absolutely critical and important issue. We 
already knew this was going to be an important transition. We 
knew that with the issues of homeland security, we're facing 
challenges unlike any we've seen before. But what we've seen in 
the last week with the issues of financial security, we now 
know that we have challenges that are multiplied. We have big 
problems that emphasize all the more the importance of 
leadership and that emphasize even more fundamentally the 
importance of confidence in the system to be able to drive 
things forward. And that's the most important thing that we can 
accomplish in the transition that's coming, of creating 
capacity to ensure both competence and confidence in the 
American government.
    The challenges are huge, in part because the problems are 
so dynamic and changing, in part because the pace at which the 
decisions are being made is so fast, in part because any 
decision that we make has implications that spill over 
internationally, not only within our own hemisphere but around 
the world. We have institutions that we are in the process of 
creating, recreating, and transforming in the process. And we 
have big issues for which there's no clear roadmap. And so it's 
all the more important that we establish principles to guide 
our actions instead of running the risk of stumbling through on 
an ad hoc basis, dealing with one problem as it comes up after 
the other, which can only serve to undermine the ability of the 
system to create confidence to begin with.
    We have homeland security, which is already important. We 
have financial security, which has become even more important. 
We have other issues that are out there, including management 
of the census, the care for our wounded warriors returning from 
wars in Afghanistan and Iraq. We have a need to try to manage 
the war in a productive kind of way. And in short, we have a 
whole set of issues that demand the highest levels of both 
confidence and competence in our system.
    Let me suggest five things, Mr. Chairman, that we might be 
able to do to ensure that the transition gives the American 
people what it is that they deserve.
    The first is to make the obvious point that some of the 
others today have made as well, which is the essential 
importance of beginning now. And in fact beginning now is 
already too late. We need to have transition processes in place 
long before now so that when Election Day comes, the new team 
is ready to begin that process of transition into executive 
decisionmaking and responsibility.
    To even talk about this out loud is so often seen as 
hubris. But one of the most important things this committee can 
do and, in fact, that all those who care about this issue can 
accomplish, is to make it possible and politically safe for 
people to talk about what it is that needs to happen, because 
it is is irresponsible not to. One of the things that we are 
electing is the Chief Executive of the United States, and we 
need to make sure that the President's in the position to 
ensure that the laws are faithfully executed.
    The second thing is fast track confirmation. As many of my 
colleagues today have talked about, we need to be able to make 
sure that, first, the new administration is in a position to 
identify the mission-critical positions; that the security 
clearances and background checks are done expeditiously; that 
the Senate confirms them quickly; and that we can get the key 
people in the key positions ready to act, so that we are not in 
a position, as we might well have been in in the middle of a 
financial crisis, without the key people in place, confirmed by 
the Senate, in the position to exercise legal authority. At 
this point there is simply no alternative but to ensure that we 
have fast track confirmation for those key mission-critical 
positions if we're going to have a government that works.
    Third thing is preparing the team to lead. We need not only 
orientation programs for the top political appointees, but we 
need a kind of rolling process to ensure that as others come 
onboard after the first 100 days, the first 200 days, given the 
pace of clearance and the way in which these positions are 
filled, we need an ongoing orientation program and we need a 
program on top of that to provide ongoing support.
    We did a project not too long ago with Danish senior civil 
servants and Danish political appointees who told us that one 
of the hardest things that was hardest about their jobs was a 
sense of loneliness and the lack of support. Having people in a 
position to provide guidance on some of these key issues is 
absolutely critical to ensuring that the kind of executive 
experience we need is in place. This requires, in some cases, a 
small bit of budget support; but to do otherwise is to risk 
leaving the country unprepared.
    Fourth is to build the budget. If the President doesn't 
have the priorities in place when the new budget's submitted, 
then in many cases it may be a year and a half until there's 
another crack at trying to attack those issues. It's absolutely 
critical that the administration has the capacity in place to 
make those decisions quickly.
    Finally, if there's anything that's become clear about this 
election is it's an election about change. One of the things we 
have not heard, though, is how the candidates propose to 
translate that change into results. The new President needs to 
be in a position quickly to ensure that the rhetoric of change 
is translated into results that matter; that we need to have a 
system for management for results. We need, as the Comptroller 
General suggested earlier, far better contract management and, 
in particular, an attack on the high-risk programs that 
especially expose the government to fraud, waste and abuse.
    And finally, we have a looming human resources crisis that 
will require continuing effort to make sure that we have in 
place the people who are equipped to be able to do the jobs 
that need to be done.
    In short, Mr. Chairman, we need a government that can not 
only provide competence but also confidence, and that's why 
this transition is so absolutely critical.
    Mr. Towns. Thank you very, very, very much.
    [The prepared statement of Mr. Kettl follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Towns. There's one thing that sort of went through--
almost every one of you said it, that people must be confirmed 
quickly. I know Ms. McGinnis indicated 30 days the process 
should take. Could I get from the rest of you, in terms of time 
that you think that a person should be confirmed, within how 
many days?
    Mr. Kettl. Mr. Chairman, if I could take just a quick stab 
at that. It would be hard to have an absolute standard for 
everyone. There are some positions that are most critical. And 
one of the things that Mr. Johnson has put together is a list 
of the mission-critical positions, not only the White House 
staff but also in Cabinet agencies. What we need to do is 
figure out who needs to be ready to act and decide at noon on 
January 20th, limit that to perhaps the first 50, maybe even 75 
percent, then work backward to figure out what it is we need to 
do, when to get it done, and then work through the rest of the 
processes.
    We just have no alternative but to make sure that we have a 
financial security team in place on January 20. Some positions 
are going to take much longer. There are some that we just 
don't have the luxury of being able to deal with that. And the 
thing to do is to figure out what it is we need to have done 
when, and backup to make sure that what we need to do can get 
done, so that decisions are made and the clearances and the 
background checks are done in the meantime.
    Mr. Towns. Time limit?
    Ms. Kumar. I think if people start putting in--the 
candidates start putting in names now, which is something 
that's not been done before--of their transition team people, 
they can put people on there who they want to have in their 
administration when they come in. So this is an opportunity 
that they should take advantage of. And I think that way 
they'll be able to increase their capacity.
    And I think Ms. McGinnis's suggestion about increasing the 
number of people involved in the confirmation--in going through 
the nominee's background--is a critical way of doing it too. 
But the candidates themselves are going to have to decide who 
they're going to focus on, what positions.
    Like, for example, Reagan, when he knew that the economy 
was the big issue, and so he chose the 87 positions. He did 
that--he was able to do that right after the election because 
they had--they had chosen their chief of staff and they had a 
team in place that could make--make the choices and start 
sifting through.
    Ms. Hausser. Mr. Chairman, I do know that NAPA has 
supported the 30-day deadline, although I agree with Professor 
Kettl that probably, it being a hard standard, is a little bit 
more than we could hope for. But 30 days seems reasonable.
    There is the need to have the vetting. We know the Senate 
committees like to do a lot of vetting. And that's--they're 
taking their role seriously. But I think are committed--a sense 
of commitment to expeditious confirmation is something we 
should--they could also commit to.
    Ms. McGinnis. Could I just add--and I hope you'll have a 
chance to look at this letter that was signed by the President 
of the Center for the Study of the Presidency and the National 
Academy of Sciences, the Partnership for Public Service and the 
Carnegie Institution for Science, as well as I signed it and 
other leading scholars. And what we called for was to have the 
Senate consider and vote on the 50 most critical sub-Cabinet 
nominees within 30 days of inauguration. And after that, the 
standard we suggested would be 45 days.
    I think it's important to set a goal and have a deadline. 
And that's why we joined with these leaders to suggest that. 
The process is--it has two parts. It's the nomination process, 
which the President-Elect in the transition will control, and 
then the confirmation process. To say that confirmation should 
happen within 30 days is perfectly reasonable. And the 
nomination process should be able to be completed within 30 
days as well.
    Mr. Towns. You know, I know that sometimes you have 
circumstances that can develop and then might slow down the 
process. But I think that the key here is that we do not do 
enough up front. I mean, the point is that one of these guys 
are going to be President of the United States. And of course, 
I think the process can start, you know, now, because you 
know--and of course--and by the time the process is over, by 
the time we find out who the winner is, then we'll be in a 
position to move forward.
    I think that we need to try to eliminate this long delay. 
And, of course, I think that if we do that, then I think that 
then we would be able to put people in place in a very timely 
fashion.
    Ms. Kumar, what do you think is the best way to get ready 
to address the problem? Should the campaign's economic advisors 
be briefed before the election, especially during this 
atmosphere and climate that we have today? They are asking for 
$700 billion over there. I just left.
    Ms. Kumar. Yeah. There's certainly--there's a great deal of 
information that's already out there. And I think the 
candidates have been working with the White House, and their 
transition teams have been working with the White House. And I 
think the White House has tried to be flexible in what it's 
providing to candidates. So I think if they want certain kinds 
of information, I think that they'll probably get it.
    Mr. Towns. Right. You know, my colleague Congressman 
Bilbray, you know, mentioned something that I think that, you 
know, that he said that the lower staff members, in terms of 
people not at the top but down below, that are now being put 
out, looking for jobs, that could create problems. You know, 
what could we do to sort of prevent that sort of thing from 
happening? I mean, he talked about--I mean, he gave some 
examples of some experiences that he's had at the lower level. 
But the point is that he felt that we might have it as well at 
the level in terms of the Presidency. You know, when you have a 
situation where you run for office and then somebody loses, 
then the people that's in know now they have to go. And then 
they begin to create all kinds of problems. And he gave some 
examples which I thought were interesting.
    Ms. Kumar. I think that in the end, they didn't turn out to 
be very big issues. That there weren't as many, you know, w's 
taken from the computer keyboards and the rest of the things 
that were--that had been listed early on that had happened in 
the White House. Most of that, in fact, did not take place.
    I think the real problem in coming into a White House is 
not that kind of thing. It's the fact that there's no 
institutional memory. That if--when you come into the Office of 
Chief of Staff, one person was telling me when he came into his 
office as staff secretary, that all he had was a desk, a 
computer and there was no hard drive. This is in the Clinton 
administration when they came in. And they had no hard drive, 
because the courts had ordered that they be taken.
    The Presidential Records Act provides that everything from 
a White House goes with the President. So, when somebody comes 
in, there's no manual of how to do their job. And, there is--
and there are not records left behind except some in the 
counsel's--and the NSC has records. That's a real problem when 
somebody comes into the White House.
    Mr. Towns. How can the Congress help? We see it's a 
problem. You know, what can we do to be helpful? Right down the 
line.
    Ms. McGinnis. I think this is a leadership issue. And so, 
you know, speaking out and making it a high priority to get 
excellent people in place and have continuity of leadership on 
the Senate side; a leadership commitment to expedite the 
consideration of nominees, particularly the critical top 50 to 
100. And overall, we would certainly suggest that in the next 
Congress, legislation be considered to reform the Presidential 
appointments process. There's a lot in that process that needs 
to be changed, and some of it will require legislation.
    There have been proposals in the past which have not been 
enacted. And that might be a place to start. But, you know, 
really look seriously at improving the process and perhaps 
reducing the number of people who have to be confirmed.
    We who think about the prune jobs, you know, feel that 
these top management jobs, people who are running agencies, are 
really important in terms of accountability and confirmation. 
But, I'm not sure that every single assistant secretary or 
other sort of staff function around a secretary needs to go 
through the whole confirmation process. So overall reform would 
be my suggestion.
    Mr. Kettl. Mr. Chairman, let suggest three quick things. 
One is to echo what Ms. McGinnis said about streamlining the 
appointments process, some of which will require some 
legislative action, some of which can simply be done to try to 
at least ensure that everybody makes a promise not to change 
the forms in the meantime, so at least there is an ability to 
be able to note what it is that you've got to supply.
    Second thing is, relatively modest appropriations to ensure 
the political appointees in particular have ongoing support 
through the course of their jobs. We're not talking about very 
much money, but we're talking about critical money that can 
make a difference.
    And the third, and probably most importantly, is attention, 
like this hearing, to try to make it safe for people to talk 
about these issues. The overriding--in some ways--terrible fact 
about this is that it's a problem that insiders know about, but 
it's very difficult to talk about it publicly on the outside, 
outside these Chambers, because otherwise candidates are 
accused of hubris. They're accused of sticking their neck way 
out. They're accused of celebrating before the game is over.
    And, it's absolutely irresponsible not to think about how 
to do the job, if you get it, as the process of trying to 
convince people that ought to earn it. And, unfortunately it is 
just impossible to be able to have frank, honest discussions 
and to be able to use this as a criteria for selecting the 
President. And, one of the most important things that Congress 
can do is to make the discussion safe, including discussions 
like this, and including shining a bright light on the 
campaigns and asking them what it is that they were doing and 
what is it they're planning and how they would do the job if 
they got it.
    Mr. Towns. Right. Because you're right. Most of the time, 
they'd feel as if they're being criticized for being 
presumptuous by taking on transition work. I mean, they were 
being criticized.
    So, I was wondering, if maybe in terms of--you know, 
statements were not made by Members of Congress to say that 
this process should be moved forward. I think that might be 
something that needs to be done. Because you know, being a 
candidate a few times myself, people, you know, you're 
concerned about the perception or criticism that you might get. 
And, this is a very serious issue that I think that needs to be 
dealt with. And, of course, I think that maybe, you know, 
that's something that we can make statements about. It's an 
important time to encourage that process to move forward.
    Mr. Kettl. Congressman, I would even consider making a 
small appropriation available for transition planning to the 
candidates, with the requirement that the candidates name a 
transition director as of July 1st, for example. Just a small 
amount of money in exchange for at least making it public and 
therefore making it safe to talk about it might make some 
difference.
    Ms. McGinnis. Even a resolution to this effect I think 
would be enormously helpful. A House resolution, a Senate 
resolution. It gives a lot of cover to the campaigns who are--
they do have transition planning teams in place, but no 
director has been publicly announced. And, it's all being done 
sort of below the radar. And, that is--it's really kind of 
silly when you think about all the steps that need to be taken 
even before the election. So a bipartisan resolution or 
statement would be excellent.
    Mr. Towns. Right. Ms. Kumar, what do you think we can do 
right now to help with this? And, what should the transition 
team be doing at this moment?
    Ms. Kumar. Well, I think one of the things that's important 
is the transition budget. They need to have--know how much 
money they're getting. The problems that are going to result 
from dealing with continuing resolutions are great because when 
they--when you do have a winner, they're going to have to deal 
with a new budget, prepare for a budget 3 weeks after they come 
in. And here there is no budget in place and they don't have--
the funds, I assume, are going to come forth for the 
transition. But they have to figure out how much private money 
that they're going to be raising.
    I think right now the--in the transition, the transition 
teams would be focusing on getting--gathering names for 
appointments and focusing on what are the key issues that the 
candidates are talking about themselves.
    One of the reasons that the Reagan and George W. Bush 
transitions were so effective was that the candidates spoke 
about five issues. And, so when they came into office, they 
were able to take their five campaign issues and make their 
governing issues. So when Bush, for example, came in, he took 
his five issues and he spent the first week on education. Then 
he did faith-based initiatives, tax cuts, and went down the 
list of what he had already talked about.
    So, one of the things the candidates can do for themselves 
is focus on just what they're going to do when they're 
governing. And then that allows their transition teams to focus 
on bringing people in place for those particular issues.
    But, we know that national security is crucial, as is 
financial security. And, those are going to be the areas that 
they're going to have to focus their efforts on on recruitment.
    Mr. Towns. Yeah. We have to get SEC, SEC, we have to get 
FDIC. We have to get all this. And, with the crisis that we 
have, I mean, we need to make certain that we get some good 
people.
    Ms. Kumar. And, there are many vacancies on--a lot of 
boards are suffering from having vacancies, too. And they have 
to make sure that they can fill those on crucial--spots that 
are crucial to those issues.
    Mr. Towns. Right. I guess, Ms. Hausser, what's preventing 
the implementation of the rest of the NAPA recommendations? 
What's stopping it?
    Ms. Hausser. I don't know that I can say that they're 
stopped. I think there's--until the appointment of Admiral 
Acton, I think there was some inertia; that his appointment has 
really changed things in terms of their focusing. And with 
respect to some of the executive appointment recommendations, 
they're making progress. That, by its nature, is a process that 
you have to go into thoughtfully. Although it can be expedited 
and should be expedited, it still is--making crucial 
appointment decisions is--especially at this time in an 
administration--is its own challenge.
    I think there is a renewed--particularly since the 
appointment of the Admiral--there's a renewed focus on the 
transition and making sure the training is taking place. That 
had a little bit of a slow start, but now efforts are panning 
out. And, there--I think there's been an acceleration in 
momentum.
    So, given where their things were in June with respect to 
our making recommendations that things happened, of the first 
12 recommendations, at least 10 are completed to some degree. 
So it's coming along. And, I'm--I think the--what you hope for 
is that there's nothing that occurs that would reverse that 
momentum, because it has accelerated.
    Mr. Towns. This committee--Ranking Member Bilbray and I--
we're not a finger-pointing committee. I mean, we recognize 
that we have a role as well to play in trying to fix whatever 
the problems might be. So we talk to you to try to find out in 
terms of our role, in terms of what we might need to do to be 
able to sort of make things work, you know, much more 
effectively. So, if you have any suggestions or recommendations 
to us, you know, and we call to talk to you, because you've had 
so much experience with it, and we think that we need to have 
that, because if we don't have it, then we're not sure as to 
what we might do on this side. So, we need to have that 
information.
    So, if you have any suggestions or recommendations to us, 
you know, as to how we might make this transition much more 
effective or smoothly, you know, please share.
    Ms. Hausser. Well, again, with respect to Homeland Security 
in particular, I think there had been so much turmoil in that 
Department with its major reorganizations, with the high degree 
of turnover, the dust took so long to settle--and it arguably 
hasn't settled completely--that the--it's important to 
recognize the progress, but I do believe that congressional 
leadership--acknowledging it and then making it very clear that 
it's expected to continue, particularly with respect to prompt 
appointment of key executives.
    There was a little bit of--when the Department was asked to 
identify its critical executive positions, that actually 
started a while ago and there was an effort made to do that. It 
turned out the criteria were a little bit confusing. And, when 
they redid the list, or when they reexamined the list, there 
was a particular slant on transition. It helped focus the 
effort. So, the first effort was somewhat successful, but a 
little bit disappointing in some respects, in that there didn't 
seem to be a lot of consistency in how people approached the 
task. But, they took it as a learning experience.
    And, with the oncoming transition, they focused it again, 
particular emphasis on transition. And, I think they're very--
they're satisfied with the way they've identified their 
critical positions. So, now they have much better focus with 
respect to during a transition, immediately after, where do 
they really have to make sure they've got good acting career 
people or career deputies in place and where will the initial 
appointments need to be made. So, it's--they've done--there's 
been a lot of organizational learning at Homeland Security, 
muddled by the major reorganizations along the way.
    Mr. Towns. Yes.
    Ms. McGinnis. At the beginning of the hearing, Mr. 
Chairman, you mentioned that you were for Barack Obama and Mr. 
Bilbray is for John McCain.
    Mr. Towns. Yes.
    Ms. McGinnis. And, that's not what we're here to talk 
about. But, I think it could be very effective to reach out to 
the candidates individually and convey, you know, the points 
that you've raised and confirmed about the importance of 
beginning that personnel--identifying people, making sure that 
they can be prepared to send the names of well-qualified people 
for these most critical positions before the inauguration, so 
that we can have, you know, the full team on the field on day 
one.
    Mr. Towns. Uh-huh. Any other comments?
    Let me thank you for your testimony. You've been very 
helpful. And, I think that dialogs must take place and, of 
course, we might even be talking with you again, you know, as 
we move forward, because we want to make certain that we have a 
smooth transition. And, I am concerned because Homeland 
Security is-- that was not a part of any other transition. And, 
of course, you know, you have to be, you know, concerned about 
that. Also concerned about the fact that our financial 
situation is really, really in flux. And of course, it's 
important that we get to keep people in there that's going to 
stabilize it to make certain that stays strong.
    So, your input is very, very important. So I want to thank 
you again for your testimony. Thank you very, very much. And, 
this committee stands adjourned.
    [Whereupon, at 4:45 p.m., the subcommittee was adjourned.]
    [Note.--The Government Accountability Report entitled, 
``The White House, Allegations of Damage During the 2001 
Presidential Transition,'' can be found in subcommittee files.]
    [Additional information submitted for the hearing record 
follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
